                                                   NATIONAL SCIENCE FOUNDATION
                                                    OFFICE OF INSPECTOR GENERAL
                                                      OFFICE OF INVESTIGATIONS

                                             CLOSEOUT MEMORANDUM

 Case Number: A05090063                                                          11           Page 1 of 1



          After closer review of an REU proposal,1 it appears that the proposal did not involve the use of
          human subjects. Although the research contemplates evaluating the participants at the conclusion of
          the program, that information appears to be for internal use only rather than disseminated as
          generalizable knowledge. Therefore the research does not appear to meet the definition of research
          with human subjects.

          Accordingly this case is closed.




1
NSF OIG Form 2 (1 1/02)
